<html>
<title> - OVERSIGHT HEARING ON UPCOMING ISSUES AT THE TWELFTH REGULAR MEETING OF THE CONFERENCE OF THE PARTIES (COP12) TO THE CONVENTION ON INTERNATIONAL TRADE IN ENDANGERED SPECIES OF WILD FAUNA AND FLORA (CITES)</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





 UPCOMING ISSUES AT THE TWELFTH REGULAR MEETING OF THE CONFERENCE OF 
                          THE PARTIES (COP12)

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 17, 2002

                               __________

                           Serial No. 107-152

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov



                                 ______

81-715              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 17, 2002...............................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland, Prepared statement of...............     1
    Pombo, Hon. Richard, a Representative in Congress from the 
      State of California........................................     2

Statement of Witnesses:
    Hogarth, Dr. William T., Assistant Administrator for 
      Fisheries, National Marine Fisheries Service, U.S. 
      Department of Commerce.....................................     9
        Prepared statement of....................................    10
    Manson, Craig, Assistant Secretary for Fish and Wildlife and 
      Parks, U.S. Department of the Interior.....................     2
        Prepared statement of....................................     5

 
OVERSIGHT HEARING ON UPCOMING ISSUES AT THE TWELFTH REGULAR MEETING OF 
      THE CONFERENCE OF THE PARTIES (COP12) TO THE CONVENTION ON 
   INTERNATIONAL TRADE IN ENDANGERED SPECIES OF WILD FAUNA AND FLORA 
                                (CITES)

                              ----------                              


                      Tuesday, September 17, 2002

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 1324, Longworth House Office Building, Hon. Richard Pombo 
presiding.
    Mr. Pombo. [Presiding.] Good morning. I would like to 
convene today's hearing with a focus on the Twelfth Regular 
Meeting of the Conference of the Parties to the Convention on 
International Trade in Endangered Species of Wild Fauna and 
Flora, commonly referred to as CITES.
    At this point, I would like to ask unanimous consent that 
the Chairman of the Subcommittee, Mr. Gilchrest's statement be 
entered at this point in the record, without objection, and 
since I am the only one here, I will not object.
    [Laughter.]
    Mr. Pombo. It does not work that way.
    [The prepared statement of Mr. Gilchrest follows:]

Statement of the Hon. Wayne T. Gilchrest, a Representative in Congress 
                       from the State of Maryland

    Good morning, I am pleased to convene today's hearing which will 
focus on the twelfth regular meeting of the Conference of the Parties 
to the Convention on International Trade in Endangered Species of Wild 
Fauna and Flora, commonly referred to as CITES.
    CITES is the only international organization whose primary focus is 
the protection of plant and animal species from unregulated 
international trade. CITES parties meet every two years and the twelfth 
regular meeting of Conference of the Parties will be held this year in 
Santiago, Chile from November 3rd through November 15th.
    At these biennial meetings, member nations can submit a number of 
documents for consideration by the Conference of the Parties. These 
documents include resolutions, agenda items, discussion documents and 
proposals to amend CITES Appendices. We have asked our esteemed 
witnesses from the Department of the Interior and the National Marine 
Fisheries Service to discuss the proposals, resolutions, agenda items 
or discussion documents the United States is submitting to CITES and to 
inform the Subcommittee on positions taken by the United States on 
proposals submitted by other member nations.
    There are many animal and plant species around the globe that are 
in need of protection from illegal trade practices and CITES is working 
hard to control the level of trade in these vulnerable species.
    I look forward to this important discussion and I recognize the 
ranking Democrat, the Honorable Robert Underwood, for any opening 
comments he may have in this matter.
                                 ______
                                 

    STATEMENT OF HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Pombo. This is an important hearing. Over the past 
several years, the Congress, specifically the House of 
Representatives, has taken a more active role in its oversight 
responsibilities over CITES. It is something that has an impact 
on the United States, on decisions that are made, on our 
ability to trade internationally. At the same time, it is 
extremely important to the protection of endangered species 
internationally.
    I believe that the purpose of CITES is to help a sovereign 
nation to manage its endangered species, to recover those 
species, and to bring them back to the level of sustainability. 
The role that the United States plays in that is obviously 
extremely important. As a world leader on conservation issues, 
it is extremely important that the United States play a major 
role at CITES.
    It is also important that we, in that role, bring back the 
sustainable levels of populations of a number of different 
species. We have had over the years a few success stories that 
I think you can point to CITES as being part of that in terms 
of bringing back those species. But we have also fallen victim, 
I think, to some of the international politics and how that 
plays out in any of these international organizations.
    It is with a great deal of joy that I see our two 
presenters on our first panel here, because I believe they are 
both people that we have worked with in the past and they will 
do a fantastic job of leading the delegation to the upcoming 
CITES conference. So I welcome you here today, and I would like 
to recognize Mr. Craig Manson, who is the Assistant Secretary 
for Fish and Wildlife and Parks, U.S. Department of the 
Interior, and Dr. William T. Hogarth, who is the Assistant 
Administrator for Fisheries, National Marine Fisheries Service. 
I welcome you both here today.
    I am going to start with Mr. Manson for your testimony here 
this morning, and then I will move to Dr. Hogarth. So Mr. 
Manson?

  STATEMENT OF CRAIG MANSON, ASSISTANT SECRETARY FOR FISH AND 
  WILDLIFE AND PARKS, UNITED STATES DEPARTMENT OF THE INTERIOR

    Mr. Manson. Thank you very much, Mr. Chairman. I want to 
say that we very much appreciate the interest that the 
Committee has shown in the CITES process. As you know, 
Secretary Norton has designated me to head the delegation to 
the Twelfth Conference of the Parties and I am pleased to be 
here to discuss proposals and resolutions there.
    As you know, CITES includes now 160 states which are 
parties to the Convention, including ten new ones since COP11. 
It is a treaty that works. It has become one of the most 
effective forces in the world today for conservation of plants 
and animals.
    The Department of the Interior, through the U.S. Fish and 
Wildlife Service, has the lead responsibility within the United 
States for implementation of CITES. We work closely with the 
Departments of Commerce, State, Agriculture, Treasury, Justice, 
the Agency for International Development, and the Office of the 
United States Trade Representative in implementing the 
Convention.
    I would like to highlight several key proposals and 
resolutions that will be before COP12. First, the CITES 
Secretariat has submitted a document that includes a proposed 
resolution to amend the listing criteria. At COP9, the parties 
agreed to review the criteria again at COP12, and a procedure 
was adopted at COP11 to complete the review and present 
recommendations to COP12. The review, aimed at maintaining 
scientific credibility and ensuring applicability of the 
criteria to various groups of plants and animals on the 
appendices, has been a major priority. We have solicited input 
from the States and the scientific and conservation 
communities.
    Not surprisingly, the new draft criteria and the process to 
develop them have become very controversial. Although the terms 
of reference for the review of the criteria specifically called 
for a consensus report to be developed by the chairs of the 
animals and plants committees for COP12, those chairs were 
unable to reach consensus on the revisions.
    We believe that the draft criteria reflects significant 
effort and thought on behalf of the parties and explore many 
important aspects of the current listing criteria. It is our 
position that the parties should seek to retain the aspects of 
the review that can garner the support of a majority of the 
parties.
    With regard to species proposals for COP12, we focused our 
efforts on species from North America. Of the 16 proposals 
sponsored or cosponsored by the United States, eight are for 
taxa native to the United States or its waters. For native 
species, we have worked closely with both the States and other 
Federal agencies to ensure that the proposals meet the CITES 
criteria. We also cosponsored several proposals submitted by 
other countries.
    Since our priority is to focus on North America, we 
submitted no proposals for species not native to the United 
States that were not cosponsored with a range country. For 
example, we worked closely with China and India in developing 
several proposals to address the threat to freshwater turtles 
in Southeast Asia. These cooperative conservation efforts 
reflect scientific cooperation with our colleagues throughout 
the world in order to deal with and find solutions to complex 
conservation problems.
    I will discuss a few of the key proposals submitted by 
other countries submitted for consideration. First, trade in 
African elephant parts and products has been a contentious 
issue at every COP. To protect African elephant populations 
from illegal ivory trade, the United States declared a 
moratorium on ivory imports in the spring of 1989. All African 
elephants were subsequently uplisted from Appendix 2 to 
Appendix 1 at COP7 that same year. The United States continues 
to support aspects of the monitoring programs instituted at the 
previous two conferences through our African Elephant 
Conservation Act grant program administered by the Fish and 
Wildlife Service.
    As in the past, several African countries have submitted 
proposals regarding elephants. We believe that Botswana, 
Namibia, South Africa, and Zimbabwe deserve much credit for 
maintaining healthy elephant populations, particularly in 
comparison to the elephant declines that have occurred in most 
other African countries. However, because the monitoring 
systems have not yet provided significant data on the effects 
of the ivory trade, we are concerned about the potential 
effects that trade could have on elephants in other countries 
in Africa and Asia.
    Bigleaf mahogany is currently listed in Appendix 3 by 
several range countries in the Americas, including Costa Rica, 
Bolivia, Brazil, Mexico, Peru, and Colombia. Bigleaf mahogany 
is a species of concern for us. The United States is the 
largest importer of mahogany timber. As a party to CITES and in 
support of the President's initiative on illegal logging, we 
have been actively engaged in working with Brazil in particular 
to ensure that shipments of bigleaf mahogany imported to the 
United States are legal. Though we received a recommendation of 
a proposal to include this species in Appendix 2, we did not 
submit a proposal for this species. This decision was made 
after extensive discussion within the government and in light 
of previously unsuccessful efforts to list the species in 
Appendix 2.
    Guatemala and Nicaragua have submitted a proposal for 
consideration to include neotropical populations of bigleaf 
mahogany in Appendix 2. We are evaluating the proposal, 
particularly for any advantages that might be gained beyond the 
current Appendix 3 listing.
    Japan has submitted several proposals for whale species. If 
adopted, these proposals would reopen international commercial 
trade in whale products and could foster increased poaching of 
protected whale species. The United States continues to be 
strongly opposed to the downlisting of whale species, subject 
to the commercial whaling moratorium of the International 
Whaling Commission. In addition, we believe that close 
cooperation of the IWC and CITES must continue in order that 
conservation needs of whale species, both for management and 
control of international trade, will be met.
    There is growing concern over the status of some 
commercially exploited marine species in addition to whales. 
This is reflected in the proposal submitted for consideration 
at COP12. A rapidly growing trade in seahorses for traditional 
medicines, as aquarium pets, and for curios, compounded by 
large-scale habitat loss, has resulted in over-exploitation of 
many coastal seahorse populations.
    We also anticipate that the Patagonian toothfish, also 
known as Chilean sea bass, will be the subject of considerable 
debate as the parties consider whether or not the status of 
this Antarctic fish would be improved by an Appendix 2 listing.
    That concludes my oral testimony. The Department has 
submitted written testimony for the record. I would be pleased 
to answer any questions that the Committee may have at this 
time.
    Mr. Gilchrest. [Presiding.] Thank you very much, Judge. We 
appreciate that information and look forward to the question 
and answer timeframe.
    [The prepared statement of Mr. Manson follows:]

   Statement of Judge Craig Manson, Assistant Secretary for Fish and 
          Wildlife and Parks, U.S. Department of the Interior

                              INTRODUCTION

    I appreciate this opportunity to testify before you today regarding 
the Administration's preparations for the twelfth Meeting of the 
Conference of the Parties (COP12) to the Convention on International 
Trade in Endangered Species of Wild Fauna and Flora (CITES), which will 
take place in Santiago, Chile, from November 3rd through November 15th 
of this year.
    CITES is a treaty that works. At COP-11, 150 countries were parties 
to the treaty. Since then, 8 more countries have become parties. Kuwait 
and Bhutan will do so during COP-12, bringing the total to 160 
countries. It has become one of the most effective forces in the world 
today for conservation of plants and animals, both in halting the trade 
in species which are threatened with extinction and in ensuring that 
trade in other vulnerable species is consistent with sustainable 
management and conservation. The lead responsibility within the United 
States for implementation of CITES rests with the Secretary of the 
Interior, acting through the U.S. Fish and Wildlife Service (Service). 
The Service works closely with the Departments of State, Commerce 
(National Marine Fisheries Service, in particular), Agriculture (both 
the Animal and Plant Health Inspection Service (APHIS) and the U.S. 
Forest Service), Treasury (Customs), Justice, the Agency for 
International Development, and the Office of the U.S. Trade 
Representative in implementing the Convention.
    In addition, the States play a key role in the implementation of 
CITES, and the Service works closely with them in carrying out our 
CITES obligations, both in regulating trade in species which are listed 
in the Appendices and in preparing our submissions for the COP. In 
fact, after COP10, the Service developed an innovative new relationship 
with the States which allows designated State agency representatives to 
participate in our CITES deliberations on an equal basis with other 
Federal agencies for issues affecting native U.S. species. Non-
governmental organizations also participate actively in CITES 
domestically, through an extensive public participation process, as 
well as internationally during the COPs themselves. During our COP12 
preparations, we have published five Federal Register notices, held two 
public meetings, placed regular updates of CITES information on the 
Service's worldwide web pages, and undertaken countless informal 
consultations with interested groups representing every point of view.
    As the Service testified in September 2000, we were pleased with 
the overall outcome of COP11. We met our goals on many key issues and 
reaffirmed the United States'' leadership within the international 
conservation community. At COP11 the United States was elected Chair of 
the Standing Committee, Vice-Chair of the Animals Committee and was 
nominated by the Parties to chair the Budget Committee, which was 
elevated to full committee status for the first time. The United States 
was also selected to serve as Chair for many of the temporary working 
groups during the COP itself.
    Included among the successes at COP11 were the rejection of 
attempts to reopen commercial trade in several whale and sea turtle 
species and the adoption of several initiatives the United States 
strongly supported. Our cooperative efforts with developing countries, 
for the benefit of species conservation, were very productive. We 
worked closely with India, Sri Lanka and Nepal on several proposals 
including one that resulted in further protection for 3 species of 
pangolin (Manis spp.), a small mammal used for leather, food and 
medicine. We also successfully co-sponsored proposals to include the 
Mantellag frogs of Madagascar and Asian box turtles (Cuora spp.) in 
Appendix II, both of which are heavily traded for use as pets.
    A Bushmeat Working Group was created at COP11 to address the 
commercial bushmeat trade in Africa. The Parties, with broad support 
from Central and West African countries, agreed to address the need for 
improved enforcement of CITES provisions with regard to this trade 
which impacts a large array of Appendix I and Appendix II species. We 
supported this effort at the COP and have contributed funding to enable 
the working group to meet several times since COP11. The Bushmeat 
Working Group has facilitated communication between Central African 
directors of wildlife and protected areas, developed an action plan, 
and secured funding to implement the plan.
    We also supported the establishment of a Mahogany Working Group at 
COP11, comprised of all range States for bigleaf mahogany (Swietenia 
macrophylla) as well as principal importing countries, including the 
United States. We contributed funding and actively participated in the 
Mahogany Working Group meeting held in Bolivia in October 2001. The 
Secretariat has prepared and submitted the report and recommendations 
of the Mahogany Working Group for consideration at COP12.
    Attached to this testimony is a copy of the Federal Register notice 
that summarizes the proposals that the United States submitted for 
consideration at COP12. The Service held a public meeting on September 
10th to receive comments on other country's proposals. We are currently 
in the process of drafting our negotiating positions and we anticipate 
that those draft positions will be published in the Federal Register in 
the next few weeks. As in the past, we will fully discuss the progress 
of negotiations during daily public briefings for American observers 
and non-governmental organizations attending COP12.
    Of the numerous issues to be addressed at COP 12, there are several 
that we would like to highlight.

                   RESOLUTIONS AND OTHER AGENDA ITEMS

Contributions Made by Observers at COPs and the Rules of Procedure
    CITES is unique because the text of the Convention allows non-
governmental observers the right to participate in meetings and to 
speak on issues of interest to them. We support admission to the 
meeting of all technically qualified non-governmental organizations. We 
also support flexibility and openness in approval of documents produced 
by NGOs and the dissemination of these documents to delegates.

Review of the Listing Criteria
    The current criteria for listing species on the CITES Appendices 
were adopted at COP9 in 1994, after extensive debate and review. The 
United States was a leader in that effort. At that time, the Parties 
agreed to review the criteria again at COP12 and a procedure was 
adopted at COP11 to complete this review and present recommendations to 
COP12. This review, aimed at maintaining scientific credibility and 
ensuring applicability of the criteria to the various groups of plants 
and animals on the appendices, has been a major priority for us. We 
have solicited input from the States and the scientific and 
conservation communities. We also hosted a meeting of the Listing 
Criteria Working Group (CWG), in conjunction with a joint meeting of 
the CITES Animals and Plants Committees, in December 2000, at our 
National Conservation Training Center in Shepherdstown, West Virginia.
    Not surprisingly, the new draft criteria and the process to develop 
them have become very controversial. Although the terms of reference 
for the review of the listing criteria specifically called for a 
consensus report to be developed by the Chairs of the Animals and 
Plants Committees for COP12, the Chairs were unable to reach consensus 
on the revisions. The Secretariat has submitted a document that 
includes a proposed resolution to amend the existing listing criteria.
    We believe that the draft criteria reflect significant effort and 
thought on behalf of the Chairmen and the Parties, and explore many 
important aspects of the current listing criteria. It is our position 
that the Parties should seek to retain the aspects of the review that 
can garner the support of a majority of Parties.

                       SPECIES LISTING PROPOSALS

    Of the 16 proposals sponsored or co-sponsored by the United States, 
8 are for taxa native to the United States or its waters. For native 
species, we worked closely with both the States and other Federal 
agencies, to ensure that our proposals met the CITES criteria. We also 
co-sponsored several proposals submitted by other countries. Since our 
priority is to focus on North American species first, we submitted no 
proposals for species not native to the United States that were not co-
sponsored with a range country. We worked closely with China and India 
in developing several proposals to address the threat to freshwater 
turtles in southeast Asia. These cooperative conservation efforts 
reflect scientific cooperation with our colleagues throughout the 
world, in order to deal with and find solutions for complex 
conservation problems.
    I will discuss a few of the key species proposals. Commercially 
valuable species, like whales, elephants, and mahogany, are often the 
most controversial as well. Please see the attached Federal Register 
notices for a comprehensive list of proposals.

African elephants
    Trade in African elephant parts and products has been a contentious 
issue at every COP. In the spring of 1989, concern that African 
elephant populations were being devastated to supply a largely illegal 
ivory trade resulted in major importing countries, including the United 
States and the European Union, declaring a moratorium on ivory imports. 
All African elephants were subsequently uplisted from Appendix II to 
Appendix I at COP7 that same year. At COP10, elephants in Botswana, 
Namibia, and Zimbabwe were downlisted from Appendix I to
    Appendix II and a one-time sale of ivory stockpiles was authorized. 
The COP10 decision also called for the establishment of systems to 
monitor poaching and illegal ivory trade. The Secretariat and Standing 
Committee, working with the World Conservation Union (IUCN) established 
two systems: MIKE (Monitoring Illegal Killing of Elephants), and ETIS 
(Elephant Trade Information System). At COP11, the Parties reached a 
compromise that was adopted by consensus, where South Africa's 
population was transferred to Appendix II, allowing trade in certain 
parts and products, but not ivory; Zimbabwe, Botswana, and Namibia 
withdrew their proposals for increased ivory trade; and Kenya and India 
withdrew their proposal to return all populations to Appendix I. The 
intent was to allow time for the Parties to improve systems for 
monitoring elephant populations, poaching and illegal trade. The United 
States continues to support aspects of these monitoring programs 
through our African Elephant Conservation Act grant program 
administered by the Service.
    For COP12, Botswana, Namibia, and Zimbabwe have proposed to amend 
the terms of their existing downlisting annotations, which currently do 
not allow any further ivory trade, with annual quotas of ivory for 
commercial export. South Africa proposes to amend their downlisting 
annotation to allow for an initial sale of the Kruger National Park 
stockpile of ivory, and a subsequent annual quota. In addition, Zambia 
has proposed to transfer its elephant population from Appendix I to 
Appendix II, with an annotation to permit trade in up to 17,000 kg of 
whole tusks owned by Zambia's Wildlife Authority. Kenya and India, on 
the other hand, propose to return all Appendix II populations of 
elephants to Appendix I. We continue to believe that Botswana, Namibia, 
South Africa, and Zimbabwe deserve much credit for maintaining healthy 
elephant populations, particularly in comparison to the elephant 
declines that have occurred in most other African countries. However, 
because the monitoring systems have not yet provided significant data 
on the effects of the ivory trade, we remain very concerned about the 
potential effects any further trade could have on elephants in other 
countries in Africa and in Asia.

Mahogany
    Bigleaf mahogany is currently listed in Appendix III by several 
range countries, in the Americas including: Costa Rica, Bolivia, 
Brazil, Mexico, Peru and Colombia. Species listed in Appendix III can 
be traded commercially. Once a species is added to Appendix III, the 
countries that list the species are required to issue permits and 
ensure that specimens are legally acquired; non-listing range countries 
must issue certificates of origin; and importing countries are required 
to ensure that all shipments are accompanied by the appropriate CITES 
documents. The issuance of Appendix III documentation is dependent on 
legal findings and does not include the biological determinations that 
are required for export of Appendix II listed species.
    Proposals to include this species in CITES Appendix II were 
submitted at COP8 and COP10 with the United States as a co-sponsor with 
Costa Rica and Bolivia, respectively, and at COP9 by the Netherlands. 
In our April 18, 2002, Federal Register notice (67 Fed.Reg. 19207) we 
indicated that we did not plan to submit a proposal for this species, 
although we had received a recommendation to do so. This decision was 
taken after extensive discussion within the United States'' government, 
and in light of the previously unsuccessful efforts to list the species 
in Appendix II. However, bigleaf mahogany is a species of concern for 
us. It is being exploited at what some scientists and non-governmental 
organizations believe is an unsustainable rate, illegal trade in the 
species is suspected to be substantial in some countries, and the U.S. 
is the largest importer of bigleaf mahogany timber. As a Party to 
CITES, and in support of the President's emphasis on combating illegal 
logging, we have been actively engaged in working with Brazil, in 
particular, to ensure that shipments of bigleaf mahogany imported into 
the United States are legal under CITES.
    Guatemala and Nicaragua have submitted a proposal for consideration 
at COP12 to include the neotropical populations of bigleaf mahogany 
(Swietenia macrophylla), including logs, sawn timber, veneer, and 
plywood, in Appendix II. The purpose of the proposal is to promote 
sustainable management of bigleaf mahogany in order to help ensure its 
conservation and maintain trade for the future. We are evaluating the 
proposal, particularly for any advantages that might be gained beyond 
the current listing in Appendix III. An interagency task force has been 
created to evaluate the Appendix II proposal, determine its impact, and 
consider how best to work with range countries in the conservation of 
this species.

Whales
    Japan has submitted two proposals to downlist stocks of both 
Bryde's whales and minke whales from Appendix I to Appendix II. Japan 
has also submitted a proposed resolution that would repeal Resolution 
Conf. 11.4, which outlines a cooperative relationship between the 
International Whaling Commission (IWC) and CITES, and would establish, 
among other provisions, that any trade in whale species downlisted to 
Appndix II should be limited to trade among IWC Members. If adopted, 
these proposals would re-open international commercial trade in whale 
products, and could foster increased poaching of protected whale 
species. Similar proposals were defeated at the last three COPs.
    The United States continues to be strongly opposed to the 
downlisting of whale species subject to the commercial whaling 
moratorium of the IWC. We believe that CITES should honor the request 
for assistance in enforcing the moratorium which was communicated by 
the IWC to CITES in 1978. In addition, we believe that the close 
cooperation of IWC and CITES must continue in order that the 
conservation needs of whale species--both for management and control of 
international trade--will be met. While the scientific committee of the 
IWC has developed the Revised Management Procedure (RMP) for setting 
quotas if commercial whaling were to resume, the IWC has not completed 
the development of a complementary and necessary Revised Management 
Scheme (RMS) for monitoring catch and trade of whale products. Mexico 
has submitted a proposed resolution that would reaffirm the 
complementary relationship between CITES and the IWC as a crucial 
element for the conservation of whale stocks. The resolution would 
retain whale species in the CITES appendices as they are currently 
listed while work continues on developing the RMS. We also note that, 
independent of the IWC issue, these whales do not meet several of the 
CITES criteria for downlisting to Appendix II.

Other Marine Species
    In addition to whales, there is growing concern over the status of 
some commercially exploited marine species. This is reflected in the 
proposals submitted for consideration at COP12. There are proposals to 
list the whale shark (Rhincodon typus) and basking shark (Cetorhinus 
maximus) on Appendix II. The United States has submitted proposals to 
list seahorses (Hippocampus spp.) and humphead wrasse (Cheilinus 
undulatus) in Appendix II. A rapidly growing trade in seahorses for 
traditional medicines, as aquarium pets, and for curios, compounded by 
large-scale habitat loss, has resulted in overexploitation of many 
coastal seahorse populations. Humphead wrasse, extremely vulnerable to 
overfishing because of late maturity and other biological 
characteristics, are heavily exploited for the destructive live reef 
fish trade, primarily to supply restaurants in Hong Kong and other 
Asian markets.
    We will be discussing this and other impacts on coral reefs and 
trade in coral-related species at the Coral Reef Task Force meeting on 
October 2nd and 3rd. I anticipate that we will develop a consensus 
among the Federal, State and territorial members of the Task Force as 
to where we should go in the future regarding coral and coral-related 
trade, and we will communicate that to the Parties in order to assist 
both in making decisions on individual species and in guiding future 
actions.
    We anticipate that Patagonian toothfish (Dissostichus spp.) will be 
the subject of considerable debate as the Parties consider whether or 
not the status of this Antarctic fish would be improved by a CITES 
Appendix II listing. Patagonian toothfish are managed under the 
Commission for the Conservation of Antarctic Marine Living Resources 
(CCAMLR) to which the United States is a Party. Because of the high 
market value of toothfish, also known as Chilean sea bass, and the 
difficulty in detecting and halting illegal fishing in remote Antarctic 
waters, illegal harvest is lucrative and relatively low-risk. If agreed 
to by the Parties, this would be the first Appendix II listing for a 
marine fish species that attempts to combine the regulatory regime of a 
regional fishery management organization with that of CITES. The 
Parties would need to decide on many complex implementation issues, 
including how the two permitting systems might work together and how to 
address the difficulties in making scientific findings for high seas 
species. These matters and others related to potential listings of high 
seas marine fish species have not been fully explored and such 
proposals have not succeeded at previous COPs.
    This concludes my written testimony and I would be pleased to 
answer any questions you may have about CITES implementation and our 
preparations for COP12 in Santiago.
                                 ______
                                 
    Mr. Gilchrest. I want to apologize for being late and thank 
Mr. Pombo for taking the Chair.
    Dr. Hogarth?

STATEMENT OF WILLIAM T. HOGARTH, PH.D., ASSISTANT ADMINISTRATOR 
FOR FISHERIES, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, 
              UNITED STATES DEPARTMENT OF COMMERCE

    Mr. Hogarth. Thank you, Mr. Chairman and Mr. Pombo. I 
appreciate the opportunity to testify before this Subcommittee 
regarding CITES and the upcoming COP12.
    I am Bill Hogarth, the Assistant Administrator for 
Fisheries for the National Oceanic and Atmospheric 
Administration. I appreciate the opportunity to discuss with 
you some recent NOAA achievements in the CITES arena and our 
preparation for the next COP12.
    As you just heard, the U.S. Fish and Wildlife Service of 
the Department of Interior has the legislative authority for 
the implementation and enforcement of CITES. However, several 
highly visible marine species that are listed in either 
Appendix 1 or Appendix 2 of CITES fall within the domestic 
jurisdiction of the Department of Commerce and NOAA based on 
legislative authority contained in the Endangered Species Act, 
Marine Mammal Protection Act, the Fur Seal Act, and the 
Magnuson-Stevens Fishery Conservation and Management Act. This 
includes great whales, dolphins, queen conch, hard corals, five 
species of seals, and marine turtles.
    In recent conferences of the parties to CITES, some of the 
most contentious issues have involved marine species and the 
number of marine species discussed at CITES meetings is ever 
increasing. These issues have ranged from efforts to reopen 
trade in large whales and endangered hawksbill turtles to 
looking at ways the CITES may be used for both the conservation 
of sharks and other marine fisheries through regulation of 
international trade.
    NOAA has contributed its expertise concerning marine 
species to discussions of these issues in numerous CITES 
meetings and in the day-to-day implementation of the treaty. 
Some of the achievements that we have at the most recent 
conferences of the CITES parties, our members of the delegation 
have led efforts to prevent the downlisting from Appendix 1 to 
Appendix 2 of five populations or species of great whales, 
which would lead to resumption of international trade in these 
species by CITES. We have also prevented the reopening of 
international trade in hawksbill turtle shells in the 
Caribbean. We have improved cooperation among parties to 
monitor and reduce illegal trade in whale meat, and we have 
promoted the conservation of sharks and other marine fisheries 
by consideration of regulation of the international trade 
through potential listings on Appendix 2.
    We feel we have been highly effective in day-to-day 
activities to enhance international protection of such CITES 
species as hard corals, queen conch, marine turtles, and 
whales. One important CITES related project which we have 
initiated with the Caribbean Fishery Management Council is the 
development of an international queen conch initiative in the 
wider Caribbean. This product would promote a regional 
conservation regime for this species, whose significant 
international trade is regulated by CITES.
    Additionally, NOAA has provided expertise to developing 
countries in both the Indopacific and the Caribbean to assist 
them in developing sustainable management plans for exports of 
hard corals. We have also developed an identification guide 
that will be used internationally to help countries ensure that 
their coral trade is legal and sustainable.
    Preparations for COP12, we have had input into the 
development of the U.S. positions for the CITES meetings which 
is accomplished through the CITES COP12 task force, which 
includes representatives from all NOAA Fisheries regional 
offices, science centers, and headquarters offices, as well as 
representatives from the Fish and Wildlife Service and 
Department of State. The task force evaluates recommendations 
for the listing of marine species and develops the United 
States proposals.
    There are a number of marine species that will be of 
particular interest to the United States at the CITES meeting 
this fall. U.S. proposals concerning marine species include 
both seahorses and humphead wrasse under Appendix 2 of CITES. 
The U.S. also expects to oppose the Japanese proposal to 
transfer Northern Hemisphere minke and Byrde's whales from 
Appendix 1 to Appendix 2, which would reopen the international 
trade in whales. The position of the United States at previous 
COPs has been that CITES should continue to honor the request 
for assistance enforcing the IWC's moratorium on commercial 
whaling, which was communicated by the IWC to CITES in 1978.
    Among the resolutions and discussion documents that will be 
discussed at COP12 will be the criteria for amendment of 
Appendices 1 and 2. In 1994, CITES revised its criteria for 
listing species on the CITES appendices and also called for an 
evaluation of whether the revised criteria are workable. NOAA 
Fisheries has been actively involved in the review process, 
including leading the interagency task force to evaluate the 
criteria and participating in consultations on this issue 
hosted by other organizations. We hope that adoption of the 
refined criteria will result in a more streamlined listing and 
deslisting process.
    Mr. Chairman, in summary, I would like to note that NOAA 
Fisheries involvement in CITES has been ever increasing and the 
consideration of marine issues at CITES has been expanded. Not 
only are we involved with the development of U.S. listed 
proposals, resolutions, and discussion documents, we also play 
an important role in the day-to-day improvement of the 
implementation of the treaty.
    This concludes my testimony. Once again, I thank you for 
the opportunity to be here today and I look forward to 
answering any questions you or the members of the Subcommittee 
may have.
    Mr. Gilchrest. Thank you, Dr. Hogarth.
    [The prepared statement of Mr. Hogarth follows:]

  Statement of William T. Hogarth, Ph.D., Assistant Administrator for 
   Fisheries, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to testify before the Subcommittee on the Convention on 
International Trade in Endangered Species (CITES). I am Dr. William T. 
Hogarth, Assistant Administrator for Fisheries for the National Oceanic 
and Atmospheric Administration (NOAA). I appreciate the opportunity to 
discuss with you some recent NOAA achievements in the CITES arena. I 
will also describe NOAA's preparation for the next Conference of the 
CITES Parties (COP12), including our role in attaining United States 
objectives concerning proposals, resolutions and agenda items 
concerning marine species.
    The United States Fish and Wildlife Service (FWS) of the Department 
of the Interior is responsible for the implementation and enforcement 
of CITES, and the United States Department of Agriculture, Animal and 
Plant Health Inspection Service is responsible for enforcement of CITES 
for plants. FWS has an inter-agency collaborative working group in 
which NOAA Fisheries actively participates and contributes to United 
States policy on CITES.
    However, several highly visible marine species that are listed in 
either Appendix I or II of CITES are within the domestic jurisdiction 
of NOAA, in the Department of Commerce. These include the great whales, 
dolphins, queen conch, hard corals and five species of seals. In 
addition, all marine turtles, whose protection under the Endangered 
Species Act (ESA) is shared by the two agencies, are listed in Appendix 
I of CITES. In NOAA, responsibility for protection of these marine 
species has been delegated to the National Marine Fisheries Service 
(NOAA Fisheries).
    In recent meetings of the Conference of the Parties to CITES, some 
of the most contentious issues have involved marine species, and the 
number of marine species discussed at CITES meetings is ever-
increasing. These issues have ranged from efforts to reopen commercial 
trade in large whales and endangered hawksbill turtles, to looking at 
ways that CITES might be used to promote the conservation and 
management of sharks and other marine fishes through regulation of 
international trade in CITES Appendix II. In addition to our 
responsibilities under the Endangered Species Act, NOAA is charged with 
the implementation of the Marine Mammal Protection Act and the Fur Seal 
Act with respect to the marine mammal species under our jurisdiction. 
We manage and sustain commercial fish species through the Magnuson-
Stevens Fishery Conservation and Management Act. NOAA has contributed 
its expertise concerning marine species to discussions of these issues 
in numerous CITES meetings and by advising FWS in its implementation of 
the Treaty.

                            CITES Background

    The structure of CITES is similar to that of the United States 
Endangered Species Act, in that species are listed according to their 
conservation status. In addition, in order to be listed under CITES, 
species must meet the test that their population is, or may be, 
affected by trade. Species listed in CITES Appendix I (such as whales 
and marine turtles), for which there is no international trade for 
primarily commercial purposes, are ``threatened with extinction.'' 
Appendix II species (such as queen conch, sturgeon and stony corals) 
are ``not necessarily threatened with extinction,'' but may become so 
unless trade is strictly regulated. This regulation takes the form of a 
requirement for documentation from the country of export or re-export, 
monitoring of trade and, in a few cases, national export quotas. 
Another form of regulation is listing in Appendix III (under which 
great white sharks from Australia are regulated). A country may 
unilaterally (without a vote) list in Appendix III any species that is 
subject to regulation within its jurisdiction for which the cooperation 
of other Parties is needed. Exporting range countries must issue export 
or country of origin permits for Appendix III species.

                        NOAA CITES Achievements

    NOAA has the considerable expertise necessary to contribute to 
United States policy on CITES for marine species under its 
jurisdiction. At the most recent meeting of the Conference of the 
Parties to CITES, NOAA members of the United States delegation provided 
valuable support to efforts to:
    <bullet> prevent the ``downlisting'' from Appendix I to Appendix 
II of five populations or species of great whales which would have led 
to resumption of international trade in these species by CITES;
    <bullet> prevent the reopening of international trade in hawksbill 
turtle shells in the Caribbean;
    <bullet> improve cooperation among Parties to monitor and reduce 
illegal trade in whale meat; and
    <bullet> promote the conservation of sharks and other marine 
fishes by supporting various listing proposals and monitoring other 
international efforts, such as the U.N. Food and Agriculture 
Organization's International Plan of Action for sharks.
    NOAA has been highly effective in day-to-day activities to enhance 
international protection for such CITES species as hard corals, queen 
conch, marine turtles and whales. One important CITES-related project 
that we have initiated with the Caribbean Fishery Management Council 
and the Department of State is the development of an International 
Queen Conch Initiative in the Wider Caribbean. This would promote a 
regional conservation regime for this species, whose significant 
international trade is regulated by CITES. In addition, NOAA and FWS 
provided expertise to developing countries in both the Indo-Pacific and 
Caribbean to assist them in developing sustainable management plans for 
exports of hard corals and has developed an identification guide that 
will be used internationally to help countries ensure that their trade 
is legal and sustainable.

                         Preparations for COP12

    NOAA's input in the development of United States positions for 
CITES meetings is accomplished by our CITES COP12 Task Force, which 
includes representatives from all regional offices, science centers and 
headquarters offices. The Task Force evaluates recommendations for the 
listing of marine species and assists FWS in the development of United 
States proposals. They also assist in the development of resolutions 
and discussion papers for consideration at the COP. After the deadline 
for submission of proposals and resolutions, they use their expertise 
to evaluate the submissions of other countries and determine United 
States positions.
    A Federal Register notice detailing draft United States positions 
on all agenda items will be published in the next few weeks. A final 
United States position on all proposals will be determined after the 
public comment period.

                           SPECIES PROPOSALS

    Prospective positions of the United States concerning marine 
species include the following:
Seahorses, Hippocampus spp. (Proposal of the United States)
    The rapidly growing trade in Hippocampus species for traditional 
Chinese medicine and its derivatives, aquarium pets, souvenirs and 
curios is resulting in overexploitation of wild populations. Because of 
this escalating exploitation for international trade combined with the 
rarity of and limited reproductive potential of seahorses, the United 
States proposed these species for listing in Appendix II. A recent 
CITES-sponsored workshop endorsed the need for this listing.

Humphead, or Napoleon wrasse, Cheilinus undulatus (Proposal of the 
        United States)
    The humphead or Napoleon wrasse is a large fish found in coral reef 
and channel slope habitats throughout much of the Red Sea, the Indo-
Pacific, and Micronesia. It is particularly vulnerable to over-
exploitation due to its life history, including slow growth, late 
maturity, long life and complex social structure. Despite its 
widespread distribution, the species is uncommon throughout its range 
and is subject to over-fishing. Although humphead wrasse are generally 
found in small social units, they have historically formed large 
aggregations during peak reproductive periods. The targeting of wrasse 
and grouper spawning aggregations (mainly for the live reef food fish 
trade) has led to the elimination of breeding populations from some 
locations after two to four years of intensive fishing. This proposal 
is for listing of the species in Appendix II.

Black Sea bottlenose dolphin, Tursiops truncatus ponticus (Proposal of 
        the Republic of Georgia)
    The United States tentatively supports this proposal to transfer 
this species from Appendix II to Appendix I. Threatened by direct 
hunting, pollution, habitat degradation and bycatch, there are 
indications that many populations in this region have declined. Despite 
this, bottlenose dolphins from this area may potentially be taken for 
export to public display facilities at unsustainable levels. Although 
there are questions concerning whether this is a distinct sub-
population, it is believed that transferring the species from its 
current place in Appendix II to Appendix I will assist in the 
conservation of this species by stopping the international portion of 
this potentially damaging trade.

Northern Hemisphere Minke and Bryde's whales, Balaenoptera 
        acutorostrata and Balaenoptera edeni (Proposals of Japan)
    These proposals seek to transfer these species from Appendix I to 
Appendix II, thus reopening international trade in whales. The United 
States position in past meetings of the Conference of the Parties has 
been that it is premature to even consider the resumption of 
international trade in whale products until an adequate Revised 
Management Scheme (RMS) is adopted by the International Whaling 
Commission (IWC) which would prevent the resumption of the excessive 
harvests that occurred in the past. Furthermore, current scientific 
information which includes information on the distribution, stock 
structure and population status of both these species, and/or 
populations of them, is still under investigation in the Scientific 
Committee of the IWC. We are also concerned with the lack of 
transparency of the inspection scheme detailed in these proposals, as 
existing stockpiles of undocumented whale products could be traded 
illegally.

Whale shark, Rhincodon typus (Proposal of India, the Philippines)
    This proposal is to add the species in Appendix II. The United 
States is inclined to support this proposal. NOAA personnel have 
gathered firsthand information on this extremely rare species, 
particularly information about the increasing international trade in 
the Indo-Pacific, with products destined for Taiwan. The species is 
rare and local, seasonal populations have declined drastically in some 
areas. Fishing effort has greatly increased due to an increase in price 
for this species. Sharks are more vulnerable to exploitation than are 
most other fishes because of their longevity, delayed maturation, and 
relatively low fecundity. Population size is unknown, but the species 
is considered to be rare. Take of whale sharks in Atlantic Ocean waters 
of the United States is prohibited.

Basking shark, Cetorhinus maximus (Proposal of the United Kingdom on 
        behalf of the European Union)
    The species is currently listed in Appendix III (fins and whole 
carcasses) by the United Kingdom. The European Union proposes to list 
it in Appendix II. The United States supported a similar proposal at 
the last CITES meeting. The main threat to basking shark populations is 
from fishing operations, both targeted on basking sharks and through 
incidental or bycatch in other fisheries. The biology of the species 
makes it especially vulnerable to exploitation: it has a slow growth 
rate, a long time to sexual maturity (ca. 12-20 years), a long 
gestation period (1-3 years) and a similar interval between 
pregnancies, low fecundity (the only recorded litter was of just six 
very large pups), and probable small populations. Take of basking 
sharks in Atlantic Ocean waters of the United States is prohibited.
Patagonian and Antarctic toothfish, Dissostichus eleginoides and D. 

        mawsonii (Proposal of Australia)
    Australia proposes that these species, both of which are known 
commercially as Chilean sea bass, be included in Appendix II. At 
present, the United States is undecided on our position on this 
proposal, although we acknowledge the significant contribution of 
CCAMLR to control trade in these species. Toothfish have been fished 
commercially for about 20 years, and management of the species is under 
the Commission for the Conservation of Antarctic Marine Living 
Resources (CCAMLR). There are several characteristics of the life 
history of D. eleginoides that make the species vulnerable to over-
exploitation. It is known that the accumulated harvesting of this 
species for international trade (by illegal, unregulated, and 
unreported fishing operations) has a detrimental impact, thus making 
the annual harvest continually exceed the level that can be continued 
sustainably. Australia also proposes that countries which use CCAMLR 
documentation can do so in lieu of CITES permits. Because of the many 
complex issues raised by these proposals, the United States has 
developed an interagency plan to be used to determine our position.

                  RESOLUTIONS AND DISCUSSION DOCUMENTS

    In addition to listing proposals, the following are among the 
resolutions and discussion papers concerning marine species that will 
be discussed at COP12:
Criteria for amendment of Appendices I and II
    In 1994, CITES revised its criteria for listing species on the 
CITES Appendices, and also called for an evaluation of whether the 
revised criteria are workable. NOAA Fisheries has been actively 
involved in the review process, and for marine species, led an 
interagency task force to evaluate the criteria and participated as 
part of the U.S. delegation, in consultations on this issue hosted by 
other organizations, such as the United Nations Food and Agriculture 
Organization (FAO) and CITES itself. In fact, many of the 
recommendations of the interagency task force to refine the listing 
criteria and guidelines have been incorporated into proposals by FAO 
and the CITES Criteria Working Group. Although NOAA Fisheries'' focus 
has been on exploited and protected marine species, the interagency 
task force attempted to develop criteria that could be adapted to all 
marine species. The United States supports the review of the existing 
criteria and NOAA Fisheries personnel will be actively involved in this 
discussion at COP12. We are hopeful that the review of the criteria 
will result in improvements to the process under which species are 
evaluated for inclusion in the CITES Appendices.

Cooperation between CITES and the Commission for Conservation of 
        Antarctic Marine Living Resources (CCAMLR) regarding the trade 
        in toothfish (Proposal of Chile)
    Chile proposes, among other things, that all countries engaged in 
the harvest, landing, transshipment, import or export of these species 
voluntarily comply with CCAMLR's Catch Documentation Scheme. The United 
States is undecided as to our position because of the many complex 
issues raised by these proposals. The U.S. has developed an interagency 
plan to be used to determine our position.

Conservation of and trade in Dissostichus species (Proposal of 
        Australia)
    This resolution makes recommendations concerning how to ease the 
implementation of Australia's listing proposal for toothfish species. 
It proposes that CCAMLR's Dissostichus Catch Document (DCD) be accepted 
in lieu of CITES permits. The United States is undecided as to our 
position because of the many complex issues raised by these proposals. 
We have developed an interagency plan to be used to determine our 
position.
    Synergy and cooperation between CITES and The United Nations Food 
and Agricultural Organization (FAO) (Proposal of Japan)

FAO collaboration with CITES through a Memorandum of Understanding 
        (Proposal of the United States)
    These resolutions propose a Memorandum of Understanding between 
CITES and FAO that would establish a framework for cooperation between 
CITES and FAO. This MOU would facilitate the implementation of 
recommendations concerning CITES regulation of international trade in 
marine fish adopted at the Eighth Session of the FAO Committee on 
Fisheries'' Sub-Committee on Fish Trade, held in February 2002 in 
Bremen, Germany. The United States recognizes the contributions FAO has 
made in evaluating the CITES listing criteria for marine fish and 
supports a formal MOU between CITES and FAO to facilitate exchange of 
information and technical advice regarding commercially exploited fish 
species, increase the effectiveness of both organizations, and build 
fisheries and CITES enforcement capacity in developing countries.

Cooperation and synergy with the Inter-American Convention for the 
        Protection and Conservation of Sea Turtles (Proposal of 
        Ecuador)
    This proposal, which the United States is inclined to support, 
among other things, calls upon the Parties to the Inter-American 
Convention and the Parties and Secretariat of CITES to coordinate their 
activities and research with regard to sea turtles and their habitats 
and to promote synergy to reduce unnecessary duplication of activities. 
The Inter-American Convention, which entered into force on May 2, 2001, 
is the first agreement in the world dedicated solely to the 
conservation of endangered sea turtles. The United States strongly 
supports this agreement and believes it will become a successful 
mechanism to protect sea turtles throughout their range in the Western 
Hemisphere. The National Marine Fisheries Service, together with the 
Department of State, played an active role in the negotiation of the 
Convention and the first meeting of the Conference of Parties (held in 
August 2002). NMFS and the Department of State will continue to closely 
cooperate in order to successfully implement this important Agreement. 
The United States also supports cooperation between CITES and other 
entities, such as the United Nations Environment Programme's Caribbean 
Environment Programme, which has been active in turtle conservation in 
the Wider Caribbean for more than 20 years.

Cooperation between CITES and the International Whaling Commission 
        (Proposal of Mexico)
    Mexico's resolution urges retaining whale species listed in the 
CITES Appendices in which they are currently listed (Appendix I) 
because it is premature to downlist these species while work is 
continuing to develop a Revised Management Scheme (RMS). The United 
States has supported similar resolutions at past COPs. We plan to 
submit an information document at COP12 detailing the status of efforts 
by the International Whaling Commission (IWC) to adopt an RMS to manage 
commercial whaling, should it be resumed. This information paper will 
also include a summary of actions taken at the October 14-17 meeting of 
the IWC which will be convened in Cambridge, United Kingdom, to make 
further progress on the RMS.

Controlled trade in specimens of abundant cetacean stocks (Proposal of 
        Japan)
    If adopted, this resolution would repeal Resolution Conf. 11.4 
(which outlines a cooperative relationship between the IWC and CITES) 
and would establish that any trade in whale species downlisted to 
Appendix II should be limited to trade among IWC members.
    The position of the United States at previous COPs has been that 
CITES should continue to honor the request for assistance in enforcing 
the IWC's moratorium on commercial whaling, which was communicated by 
the IWC to CITES in 1978. This request was answered by the CITES 
Parties in Resolution Conf. 2.9, now in consolidated Resolution Conf. 
11.4, which recommends that Parties ``agree not to issue any import or 
export permit or certificate'' for introduction from the sea under 
CITES for primarily commercial purposes ``for any specimen of a species 
or stock protected from commercial whaling by the International 
Convention for the Regulations of Whaling.'' While the scientific 
committee of the IWC has developed the Revised Management Procedure for 
setting quotas if commercial whaling were to resume, the IWC has not 
completed the development of a Revised Management Scheme (RMS) for 
monitoring the catch of whales. The United States has taken the 
position in the IWC that completion of an adequate RMS is a necessary 
prerequisite before consideration can be given to lifting the 
commercial whaling moratorium.
    Furthermore, the distribution, stock structure, trends and 
population of many of the great whales still remain under investigation 
within the Scientific Committee of the IWC. Therefore, the United 
States has taken the position that we do not view the scientific 
information as sufficient to support the resumption of trade in whale 
species listed in CITES Appendix II and that Resolution Conf. 11.4 must 
stand.

Conservation and management of sharks (Proposal of Australia)
Conservation of and trade in sharks (Proposal of Ecuador)
    These resolutions have much in common. The Australian document 
suggests that the CITES Animals Committee could, among other things, 
regularly review the conservation status of various shark populations 
and recommend listing priorities to the Parties. The Ecuadorean 
document recommends tighter cooperation between CITES and FAO to ensure 
that national management plans are developed and implemented. Both 
documents recommend an ongoing review of shark conservation by CITES 
bodies beyond COP12.
    A series of Decisions and Resolutions since COP9 has prompted 
international discussion on sharks in both CITES and FAO fora. The net 
result of this activity has been FAO's adoption in 1999 of an 
International Plan of Action for Sharks (IPOA-Sharks), and ongoing 
monitoring by the CITES Parties of FAO success in this endeavor. 
Although the IPOA lays out specific elements for National Plans of 
Action (NPOAs) to conserve sharks (data collection, monitoring, stock 
assessment, etc.), it is purely a voluntary measure that has met with 
limited success in FAO member nations. Out of 87 shark-fishing nations, 
only two (the United States and Japan) have adopted NPOAs. Fifteen 
other member nations have committed to developing NPOAs, but often have 
made this contingent on external assistance and funding.
    The United States has been a leader in both CITES and FAO in the 
development of shark conservation and management measures, and we will 
continue to look for ways to promote sustainable use of these species. 
We agree with the authors that national implementation of the IPOA for 
sharks has been thus far disappointing. We also agree that the CITES 
Parties should seriously discuss how to promote better national and 
regional shark management that could prevent the need for future shark 
listings under CITES. We believe that sharks are a set of species that 
will benefit from the increased cooperation between CITES and FAO 
called for in the United States discussion paper (see above).

Trade in sea cucumbers in the families Holothuridae and Stichopodidae 
        (Proposal of the United States)
    This is not a listing proposal, but rather a document to encourage 
discussion of the status of these species and the effects of 
international trade on their conservation.
    Sea cucumbers are sedentary animals that are especially susceptible 
to over-exploitation because they are large, easily collected, and do 
not require sophisticated fishing techniques. They are important 
components of the food chain in coral reefs and associated ecosystems 
at various trophic levels, and they play an important role as deposit 
feeders and suspension feeders. Rapid declines in sea cucumber 
populations may have serious consequences for the survival of other 
species that are part of the same complex food web because the eggs, 
larvae, and juveniles constitute an important food source for other 
marine species, including crustaceans, fish, and mollusks. Sea 
cucumbers ingest large amounts of sediment, turning over the top layers 
of sediment in lagoons, reefs, and other habitats, and allowing 
oxygenation of sediment layers, much like earthworms do on land. This 
process prevents the build-up of decaying organic matter and may help 
control populations of pest and pathogenic organisms, including certain 
bacteria and cyanobacterial mats. Over-exploitation has caused a 
hardening of the sea floor, eliminating habitat for other organisms. 
Sea cucumbers have been harvested commercially for at least 1,000 
years, but the demand in Asian markets worldwide has led to a dramatic 
increase in international trade for food beginning in the late 1980s 
and early 1990s, reaching a global annual volume of about 12,000 metric 
tons of dried sea cucumber (120,000 tons live). Since the mid-1990s, 
additional markets emerged for natural health products research and 
home aquaria.

Establishment of a working group to analyze relevant aspects of the 
        application of CITES to marine species (Chile)
    The resolution proposes the establishment of a working group within 
the CITES Animals Committee to discuss various issues concerning marine 
species. The United States supports the goal of Chile's resolution, 
although we have not developed clear positions on all of the specifics 
and implications of such a group. The United States believes that if 
such a working group were to be established, its subject matter should 
be limited to marine fish and invertebrate species only. The United 
States is concerned about the workload and budgetary implications of 
such a Working Group and sees the broader issue of implementation of 
many species listings, including many non-marine species, as needing to 
be addressed. We will also need to study this proposal in light of 
increasing cooperation between CITES and FAO on marine fisheries 
issues.
    Mr. Chairman, this concludes my testimony. Once again, thank you 
for the opportunity to be here today. I look forward to answering any 
questions you or members of the Subcommittee may have.
                                 ______
                                 
    Mr. Gilchrest. Judge, you mentioned in your testimony about 
bigleaf mahogany being proposed to be listed or put on Appendix 
2. What is the status of that and why was there a problem with 
listing it or putting it in Appendix 2? Was it with Brazil?
    Mr. Manson. It is currently listed in Appendix 3 by many of 
the range states, Brazil among them. Costa Rica, Mexico, 
Bolivia, Peru are some of the others.
    The proposal that is submitted to the COP is by Guatemala 
and Nicaragua to include those populations in Appendix 2. Of 
course, you know in Appendix 2, those are species which may not 
yet be threatened, that are not threatened but may become so 
without trade controls, whereas Appendix 3 are listings by 
range countries that are essentially asking for cooperation of 
the international community to better control trade.
    We are currently evaluating the Nicaraguan and Guatemalan 
proposal to uplist it to Appendix 2. We have not finalized a 
position about that. I think one of the key issues is whether 
or not there are advantages to putting it in Appendix 2, both 
for conservation and trade purposes. For example, it might be, 
and we have not reached a conclusion about this, that an 
Appendix 2 listing may provide the tools necessary to stabilize 
the trade in bigleaf mahogany. But these are considerations 
that are still under discussion.
    Mr. Gilchrest. This proposal came from Nicaragua and 
Guatemala?
    Mr. Manson. Yes, sir.
    Mr. Gilchrest. Do they have problems with their bigleaf 
mahogany tree population? Is that why they proposed this? Do 
they foresee a problem with that tree species in Brazil?
    Mr. Manson. I cannot answer specifically today the status 
in Guatemala and Nicaragua with the degree of certainty that 
you would expect. I can get you some information on that.
    The problem, Brazil has been the focal point of bigleaf 
mahogany issues over the last year or so, and there is a great 
deal of confusion about the situation in Brazil. A number of 
shipments have come from Brazil. It is not clear whether they 
were legal or not. That is kind of on the management side.
    Mr. Gilchrest. A number of shipments have come from Brazil 
to the United States?
    Mr. Manson. To the United States, right.
    Mr. Gilchrest. And we are not sure whether those shipments 
were from licensed loggers or unlicensed loggers?
    Mr. Manson. We have had some question about the status of 
some of those shipments that have come from Brazil, and we have 
gotten contradictory answers from the Brazilians, quite 
frankly, about that. We are about to send a mission to Brazil 
to clarify that situation.
    Mr. Gilchrest. Now, how did we know that those shipments of 
mahogany were potentially illegal? Is that caught at the port 
by Customs?
    Mr. Manson. That is typically where they are caught. We 
received from the Brazilians, as I said earlier, contradictory 
information about that. We received, for example, information 
that there were legal export permits issued for some of these 
shipments, and then within days or hours, in some cases, we 
received information that suggested--from the Brazilian 
government--that suggested that perhaps there had not been the 
proper export permits issued.
    Mr. Gilchrest. What happens? Are they barged here? Are they 
put on a ship? Are they quarantined for a while? Are they 
allowed to be distributed in this country, or are they still 
sitting at the dock?
    Mr. Manson. There are a number of shipments that have been 
released because we have been able to ascertain the status. 
There are a smaller number of shipments that are still 
warehoused. The matter was the subject of litigation. There are 
some, as I said, that are still warehoused. When we send our 
mission to Brazil shortly, we will be able to ascertain, 
hopefully, the status of those shipments.
    Mr. Gilchrest. I see. Do these come up with the raw logs or 
are they cut up into boards or how does mahogany get here?
    Mr. Manson. I need to consult with one of my experts on 
that issue about those particular shipments. I am told it is a 
mixture of things.
    Mr. Gilchrest. You also mentioned, Judge, the international 
trade in certain whale species and that countries like Japan 
would like to open up trade in these whale species. What is the 
status of that and what other countries support Japan on this 
issue?
    Mr. Manson. Presently, as you may know, there is a 
moratorium on commercial whaling activities under the 
International Whaling Commission's convention. Japan's several 
proposals would change that and open that up.
    I am not sure, and maybe Dr. Hogarth knows, but I am not 
sure which other countries are presently likely to support the 
Japanese proposals.
    Mr. Gilchrest. Dr. Hogarth?
    Mr. Hogarth. There are quite a few, I think, like Norway, 
Iceland, in particular, that would be supportive of this 
effort. I think there are about probably 18 or 20 countries 
that would support such an activity.
    Mr. Gilchrest. Are all those countries on the Commission?
    Mr. Hogarth. Norway is. Iceland is not at the present time. 
There are other members that would be supportive of this 
effort.
    Mr. Gilchrest. Is there going to be a vote soon? Will there 
be a vote in November on that issue?
    Mr. Hogarth. No. We do not think so, no.
    Mr. Gilchrest. I see. So the status of CITES dealing with 
that issue of trading internationally in whales that is now 
supported by Japan, Norway, Iceland, and other countries, what 
is the status of that issue? Is it not going to be dealt with 
any time soon? Will it be dealt with? Is it an issue that will 
be voted on any time soon?
    Mr. Hogarth. The Japanese proposal--let me just get it 
straight, CITES versus IWC. You are talking about CITES now, 
right?
    Mr. Gilchrest. Yes.
    Mr. Hogarth. It will be voted on--
    Mr. Gilchrest. Does CITES have anything to do with the IWC 
decisions?
    Mr. Hogarth. No. The IWC went to CITES and asked for the 
protection. The IWC has not changed its request of CITES for 
protection.
    Mr. Gilchrest. So IWC makes the decision whether or not to 
have trade in certain international whale species?
    Mr. Hogarth. That is true. They asked CITES to assist them 
in helping with international trade for the countries.
    Mr. Gilchrest. So IWC wrote a letter to CITES asking them 
to keep the whale population on Appendix 1.
    Mr. Hogarth. See, IWC was the one that put in the 
moratorium.
    Mr. Gilchrest. I see.
    Mr. Hogarth. Then after they put in the moratorium on 
commercial harvest, then they went to CITES and asked for help 
or protection through international trade.
    Mr. Gilchrest. So are these whale species on Appendix 1 
or--
    Mr. Hogarth. Appendix 1.
    Mr. Gilchrest. Appendix 1?
    Mr. Hogarth. Yes, sir.
    Mr. Gilchrest. And they are not under discussion to come 
off Appendix 1 any time soon?
    Mr. Hogarth. The Japanese proposal is to change it from 
Appendix 1 to Appendix 2.
    Mr. Gilchrest. Which species?
    Mr. Hogarth. Minke is one of them--
    Mr. Gilchrest. I see.
    Mr. Hogarth. --and Byrde's.
    Mr. Gilchrest. There are a couple of whale species that 
they have suggested. All right.
    I have a few more questions, but I think I will get myself 
organized for the next round and yield to the gentleman from 
California, Mr. Pombo.
    Mr. Pombo. Thank you. Mr. Manson, it is my understanding 
there are a number of positions that are still in draft form 
that the administration is working on. My question is, do we 
intend on having those positions finalized prior to the arrival 
in Santiago, and if so, who is involved in finalizing those 
positions that the administration or the delegation will take 
when they get to Chile?
    Mr. Manson. I expect that most, if not all, will be 
finalized at some point before we get to Santiago. There are 
interagency working groups developing proposals. Those will 
come up through the policy apparatus of the Departments 
involved and any disagreements will be resolved at a policy 
level involving assistant secretaries or higher, if necessary.
    Mr. Pombo. Are you currently working with the range states 
when developing these positions that the U.S. is going to take, 
particularly if it is a species outside of the jurisdiction of 
the United States?
    Mr. Manson. Yes. There are range state dialogs, as you may 
know, that go on among the range states. We have been attending 
those range dialogs and monitoring the range dialogs, and so 
what happens at those range state dialogs is very important to 
the development of positions on behalf of the United States.
    Mr. Pombo. If the range states oppose the proposal that has 
been put forth, how does that impact the U.S. position, and you 
can take anything from the mahogany issue to elephants or what 
have you. How does that affect your thinking or the positions 
that the U.S. takes?
    Mr. Manson. Well, I think it depends. For example, with 
respect to certain Appendix 3 species, I think we--well, we 
always listen very carefully to what the range states have to 
say. With respect to Appendix 3 species, we would be, I think, 
remiss if we did not give great deference to the range states. 
I think that on the whole, with respect to all species, there 
is sometimes not a unanimity among the range states about what 
ought to be done, in which case the range state dialog informs 
us but does not control our positions in any sense.
    Mr. Pombo. In the past, the United States has been able to 
play an important role at CITES when there are differences 
between the range states in changing what the proposal would 
be. In particular, at the last meeting, I felt the U.S. 
delegation was able to play a very important role in 
negotiating, I think, a position that all of the range states 
could live with. Do you envision at this particular meeting 
that we would go into it with keeping our options open on some 
of these more controversial issues so that we can play that 
role?
    Mr. Manson. I think that that is a very appropriate role 
for the United States to play, particularly on the most 
controversial issues. I do expect that we would continue to 
play that sort of role. I think with respect to a couple of the 
issues, we will keep our options open for exactly that reason.
    Mr. Pombo. Obviously, science plays a very important role 
in determining what should or should not be put on the list. I 
felt at times in the past that the science was pushed aside in 
terms of reaching a political decision. I would like you and 
Dr. Hogarth to comment on that, because it is something that is 
extremely important to me. If we are going to reach sustainable 
levels in terms of recovery on these species or the 
conservation of these species, that the U.S. position rely 
heavily on what the science is and what information has been 
gathered.
    When you talk about the differences between range states, 
many times, those differences that exist are the result of 
management within those individual countries that have resulted 
in a better position in some countries versus other countries. 
I think that is where we can play an important role in 
negotiating that. But I would like you to comment on the role 
science plays in determining what position the U.S. is going to 
take.
    Mr. Manson. Well, as I have testified in this room before, 
science is paramount to the decisions the administration makes 
on natural resources issues. That remains the case with respect 
to CITES as well as our domestic threatened and endangered 
species issues. We have, of course, as CITES requires, the 
scientific authority and we rely, of course, very heavily on 
science in developing our positions. We recognize, as I have 
testified with respect to our domestic Endangered Species Act, 
that we do not necessarily have a monopoly on good science and 
will seek that good science wherever it exists to help inform 
our positions.
    Mr. Pombo. Dr. Hogarth?
    Mr. Hogarth. We try to look at everything from the 
scientific standpoint, and that is what we try to base the 
decisions on. Also, we like to make sure that, if possible, 
that the regional management structures can manage these 
species before it gets to CITES. But if CITES is necessary from 
a trade standpoint to help the process, we do support that. But 
it should be based on, the decisions on what appendix they go 
on and this type of thing, should be based on the science, and 
then we have to look at how the management and trade helps the 
sustainability.
    Mr. Pombo. Just to, I guess, follow up on some of the 
comments that were made by the Chairman, in particular with the 
entire issue over whales and the sustainability of those 
populations, there is a huge difference between different 
species of whales and what the science is telling us, and at 
times, it appears that the U.S. has just lumped the entire 
species into one basket and taken a position versus what the 
science is telling us on individual subspecies.
    That is something that raises a concern that I have, that 
we do not look at the science in individual range states, we do 
not look at the science on individual species, and it is much 
simpler to lump everything together and take an overall 
position than it is to actually look at the science that is out 
there on these different species and what our position should 
be individually on those species.
    Mr. Hogarth. I think one of the concerns right now, I 
think, with the whale management is that IWC has not done a 
revised management scheme, and so, therefore, our concern is 
that we do not know--there is no mechanism to make sure that we 
do not have excess harvesting and get back to the same--
    Mr. Pombo. I am not going to let you get off that easy, 
because it is not IWC. The U.S. has not taken an active role in 
coming up with a revised management scheme and producing that 
and working with the other nations and coming up with that 
revised management scheme and releasing that. We have gone 
through years of promises that that revised management scheme 
was going to be developed, and I do not believe that we have 
taken the active role in that. It is easy to point to the IWC 
or to CITES and say it is those guys over there, but it is us. 
We are part of that and--
    Mr. Hogarth. We are part of the process.
    Mr. Pombo. --we have to take an active role.
    Mr. Hogarth. That is correct.
    Mr. Pombo. Mr. Manson, you mention in your testimony that 
the monitoring system for elephants have not yet provided 
significant data on the effects of the ivory trade. What is the 
current status of that monitoring system and when do you expect 
there to be a system that you feel comfortable or that the 
administration feels comfortable relying on?
    Mr. Manson. The monitoring system exists and is in place. 
There has recently been a meeting of range states on MIKE, 
which is the monitoring system, as well as on ETIS, which is 
the Elephant Trade Information System. There has been at least 
one range state dialog concerning those issues, as well, and 
there will be another one just before the COP.
    As I indicated earlier, the United States is represented at 
all of those range state dialogs. It may well be that as a 
result of what we learn at the range state dialog, and as we 
analyze the meetings on MIKE and ETIS, that we come to a 
conclusion about the adequacy of the monitoring system. I think 
it is somewhat premature right now to say that we are entirely 
comfortable with it until we complete those rounds of what are 
essentially consultations with the range states.
    Mr. Pombo. Is the position of the U.S. that it would not 
approve an amendment to or a change to the status on the 
African elephant until you are comfortable with that monitoring 
system?
    Mr. Manson. I would say that I do not think we have come to 
that hard a conclusion at this point. I think that, again, it 
is very important to understand where the range states are and 
to hear that range state dialog before we reach any conclusion 
about that. There are, as I indicated earlier, the various 
proposals of a number of the range states to change the trade 
annotations and we will have to evaluate those based upon what 
we learn in the range state dialog.
    There is a proposal from India and Kenya to uplist 
everything that is in Appendix 2 to Appendix 1. We most likely 
would oppose that proposal.
    Mr. Pombo. Just a comment on that. There is a big 
difference between the Asian elephant and the African elephant 
in terms of what its sustainability is, just as there is a huge 
difference between the sustainability within the individual 
range states. Kenya has some particular problems there that 
they do not have in some of the other countries. Unfortunately, 
some political instability has been devastating to some of the 
populations in southern Africa, particularly Zimbabwe, that 
previously had been one of the huge success stories 
internationally.
    I believe that every one of those countries needs to be 
treated differently and a legitimate analysis done on what they 
are doing in those particular countries. I think you would be 
doing a disservice to the countries that have done a fantastic 
job of managing their wildlife if they were all lumped 
together.
    Mr. Manson. That is a point well taken. In my oral 
testimony and in my written testimony, we try to draw a 
distinction and recognize those states which have done a very 
good job as opposed to the states where African elephants in 
particular remain in decline. I would agree that it would not 
be prudent to undertake a sweeping, broad approach to any of 
these issues, and that is one of the concerns that I personally 
have about the Kenyan and Indian proposals on elephants.
    Mr. Pombo. I appreciate that. I am going to yield back to 
the Chairman at this point. If there is another round of 
questions, I have additional questions.
    Mr. Gilchrest. Thank you, Mr. Pombo.
    Dr. Hogarth, Australia is proposing listing or putting 
Patagonian toothfish on Appendix 2. Your agency is developing 
an interagency plan to be used to determine the U.S. position. 
Can you tell us what NOAA's plan is and who the interagency 
team is? What information will be used to finalize the U.S. 
position?
    Mr. Hogarth. Thank you. We know and we acknowledge that 
CCAMLR has done a lot to control the trade of this species, so 
we are concerned with the position of CCAMLR. So we put 
together a team which includes our people and the Fish and 
Wildlife and we are looking at the fact of how the harvest is 
taking place, illegal harvest is taking place, unregulated, 
unreported fishing activities which are having a detrimental 
impact.
    But Australia also as part of their proposal wants to look 
at changing criteria of the appendices and all that is sort of 
tied together--
    Mr. Gilchrest. Where is the Patagonian toothfish now? I 
mean, is it Appendix 3? Is it anywhere at all?
    Mr. Hogarth. No.
    Mr. Gilchrest. It is not listed anywhere?
    Mr. Hogarth. It is not listed anywhere.
    Mr. Gilchrest. So the Australians want to jump it to 
Appendix 2?
    Mr. Hogarth. Appendix 2. But one of the proposals, the 
Chileans also have a proposal that if it went to Appendix 2, 
that we would use the CCAMLR documentation, permit would be 
used for the CITES permit. So that would help in the process. 
So we were trying to evaluate and look at all these proposals 
and make sure that CCAMLR's role in this stays solid and that 
we do the best job of regulating the toothfish. It is being 
evaluated from both the scientific and the two agencies.
    Mr. Gilchrest. You are saying it is being evaluated now?
    Mr. Hogarth. Yes, sir.
    Mr. Gilchrest. Can you take a guess what the U.S. position 
will be? Is it likely to be similar to CCAMLR's? We predict all 
kinds of things--
    Mr. Hogarth. I think probably more--
    Mr. Gilchrest. Is it likely to be similar to CCAMLR's 
position?
    Mr. Hogarth. CCAMLR's, I think, yes. I would think so.
    Mr. Gilchrest. And then it is likely to be put in Appendix 
2?
    Mr. Hogarth. I think it needs protection, yes, sir.
    Mr. Gilchrest. Is there anybody that would disagree that it 
needs protection?
    Mr. Hogarth. No, I think part of the disagreement is that 
you do not lose the role of CCAMLR in this and that you do not 
set up duplicate permits and things like that, that we have got 
a system in place and we need to utilize that, but to look 
further at the excessive harvest that is taking place. There is 
excessive harvest. We have got to control that.
    Mr. Gilchrest. If this is put in Appendix 2, what 
enforcement mechanisms are going to be put in place to limit 
the trade with the Patagonian toothfish?
    Mr. Hogarth. Well, I think that is part of the discussion, 
is what you would put into place and what permits would you 
use, what would be the documentation scheme that you would 
utilize for the exportation and import to the U.S. You would 
have to look at the--we want to make sure that there is a 
transparent process that looks at the harvest and landing and 
the transshipment, and then you would have to have a process in 
place.
    The U.S. requires the CCAMLR permit for all imports right 
now. So we do require that through Customs.
    Mr. Gilchrest. So there is no confusion between what CITES 
does and what CCAMLR does?
    Mr. Hogarth. As far as the U.S. is concerned right now, we 
abide by CCAMLR and you have to have the permit, and we have 
made several cases through Customs on the importation of 
toothfish already, the U.S. has.
    Mr. Pombo. Would the gentleman yield for a minute? There 
has been a debate for years. When they establish a regional 
monitoring body and they have the responsibility of managing 
fish stocks within that particular region, there are always 
NGO's and others that try to get species that are within that 
particular regional management body issued as a CITES Appendix 
2 or Appendix 1. There is always a huge debate over taking what 
is being done regionally and putting it into the international 
body. It is similar to the fight that we go through when they 
take a State issue and we try to Federalize it.
    So there is always opposition to taking some of these 
issues from a regional management body and putting them in 
CITES. Over the years that I have been involved with CITES, we 
have seen this happen a number of times with a huge debate that 
goes on between the countries, and it does not align itself the 
way that a lot of other issues do, because there are some that 
truly believe that if you have a regional management body that 
is trying to manage fish stocks in that area, that we should 
leave it that way and we should not make it an international 
CITES issue.
    Mr. Hogarth. CCAMLR has a catch documentation scheme. We 
utilize it. Some other countries utilize it. Countries that are 
not part of CCAMLR, CITES would be an additional step, but we 
would hope that they would not put a more cumbersome regulation 
process in place and utilize what is place and CITES would be 
an additional step for those who do not have the catch 
documentation scheme of CCAMLR. You would have that permit, but 
you would not--
    Mr. Gilchrest. What countries are in CCAMLR, other than 
Australia and Chile? New Zealand?
    Mr. Hogarth. New Zealand, U.S., Canada--
    Mr. Gilchrest. Canada?
    Mr. Hogarth. Let me get you back those answers, because it 
seems like we are not--
    Mr. Gilchrest. There are 20-some countries in CCAMLR. 
CCAMLR has not listed Patagonian toothfish--have they done 
anything with the problem with Patagonian toothfish that 
Australia seems to think that the stock is depleted?
    Mr. Hogarth. Australia proposes that you use the catch 
documentation scheme of CCAMLR, but they think that they need 
additional restrictions that CITES would bring for those 
countries that are not part of CCAMLR, and that would be 
additional permits through CITES.
    Mr. Gilchrest. What would those additional protections be 
if CITES--
    Mr. Hogarth. Well, it would be for countries. If you are 
not using the catch documentation scheme of CCAMLR for your 
imports, for the countries like--we use it.
    Mr. Gilchrest. I see.
    Mr. Hogarth. But if you were not utilizing it, if you are 
not a country that is part of CCAMLR and you are part of CITES, 
that gives you additional protection for those countries. So 
you would get additional coverage for the toothfish.
    Mr. Gilchrest. What is the range of the Patagonian 
toothfish? The South Pacific? South Atlantic?
    Mr. Hogarth. It is all of the countries, really. It is all 
around the world. It has got a large range.
    Mr. Gilchrest. And so those countries that fish in a 
commercial way, I would assume they have some input into the 
decisions that CCAMLR and Australia. Is there any other country 
that agrees, that we know of now, with Australia asking that 
this be put in Appendix 2, if that is where they want it put?
    Mr. Hogarth. At the present time, we do not know. There has 
not been any discussion that we have had with others yet.
    Mr. Gilchrest. So CCAMLR--
    Mr. Hogarth. We do not have the whole position straight 
yet.
    Mr. Gilchrest. Will CITES make a decision after CCAMLR 
makes their decision?
    Mr. Hogarth. No, this is a separate--CITES will make its 
decision based on the Australia proposal. Like I say, Chile has 
a proposal that wants protection but says that you should use 
the CCAMLR permit also.
    Mr. Gilchrest. Now, Chile does not want it put in CITES?
    Mr. Hogarth. That is correct. They want to use the CCAMLR 
process.
    Mr. Gilchrest. I see.
    Mr. Hogarth. I think Chile's permit, just to make it clear, 
is that they want everybody to voluntarily go with CCAMLR. So 
if you are part of CCAMLR or not, you would adopt that, 
voluntarily adopt the catch documentation scheme rather than 
have another permit through CITES, that everybody would just 
voluntarily adopt the catch documentation scheme of CCAMLR.
    Mr. Gilchrest. But Australia does not want that?
    Mr. Hogarth. No, Australia feels like you need to have the 
additional protection of CITES, due to the excessive harvest 
and the amount that is being shipped.
    Mr. Gilchrest. Is there any species that looks like 
Patagonian toothfish out there?
    Mr. Hogarth. That is a good question. I am not sure. That 
is another question I will get an answer for you.
    Mr. Gilchrest. As CITES works with all these regional, for 
lack of a better term, fisheries management councils, there is 
an early discussion in the U.S., particularly with the Magnuson 
Act and to a limited extent with the Atlantic State Marine 
Fisheries Commission, to discuss issues of the broad ecosystem 
management of species, and there is an ongoing pilot project 
now in the Chesapeake Bay with NOAA working to some extent with 
the Atlantic State Marine Fisheries Commission, but especially 
with the States of Maryland, Pennsylvania, and to some extent, 
Delaware, to look at an ecosystem fisheries plan for the 
Chesapeake Bay. It brings in a whole range of discussion of the 
ecological needs of the marine ecosystem and its impact in a 
broad way by human beings, either through pollution, 
fragmentation, degradation, et cetera, et cetera.
    Does CITES ever have any discussion on an ecosystem view of 
the world's oceans, either with IWC, CCAMLR, or anybody? I 
guess, Mr. Manson and Dr. Hogarth, you could--and I suppose 
that would also include the range of African elephants and 
other species.
    Mr. Manson. Well, I would say that we have certainly always 
looked at ecosystems in our approach to all threatened and 
endangered species issues. Having said that, because there are 
different schemes of national regulation, there are different 
national economies within ecosystems, that is what makes the 
ecosystem approach a little bit different under CITES than it 
might be under, say, the domestic Endangered Species Act, 
because the artificial political and economic considerations 
which overlay ecosystems in international terms change the 
calculus a little bit, and in some cases not a little bit but 
quite a lot, in terms of ecosystem management. So it is not 
always possible to apply an ecosystem view with respect to 
CITES.
    The other thing that I think has to be remembered is that 
CITES is not a generalized endangered species act for the 
international arena. CITES is concerned largely with the impact 
of trade on threatened and endangered species, and so ecosystem 
considerations, while important, have a different cast than 
they would, again, with the domestic Endangered Species Act.
    Mr. Gilchrest. Dr. Hogarth?
    Mr. Hogarth. I think to a certain extent, and I agree with 
the Judge, to a certain extent, though, when determining 
sustainability of a species, they sort of look at the role of 
that species in the ecosystem and how the two fit together 
before they issue a permit. So while it is not an ecosystem 
management approach, they sort of look at sustainability and 
the role of the ecosystem and of that species as they develop 
the permit or decide what to do with the permitting. But it is 
not an ecosystem plan as you and I would probably envision, 
managing into the future.
    Mr. Gilchrest. I guess in a fairly simplistic way, though, 
my question is, do people who deal in these issues, whether it 
is dealing with which appendix to put African elephants in what 
part of the country or what to do with specific whale species 
or Patagonian toothfish, the people who deal specifically with 
the international legal regime of trade to enforce U.S. law and 
international law, especially if CITES is dealing with CCAMLR 
or CITES is dealing with the IWC, you come in contact with the 
full range of people in the international community and why, 
while ecosystem management may not be a direct part of the 
conversation, are there people that periodically understand and 
have exchanges of information with ecologists that are honed to 
understand the specifics of that type of mechanism, who have 
studied for years to understand the physics of the system upon 
which these species have survived and evolved over millions of 
years? Is that any kind of consideration, at least in a 
peripheral sense?
    Mr. Manson. The simple answer to that is yes.
    Mr. Gilchrest. That is good.
    [Laughter.]
    Mr. Gilchrest. I had an opportunity a few months ago to 
talk with some other Members of Congress to the Prime Minister 
of Ethiopia, and Ethiopia is racked by poverty, disease, war, 
and drought, and that is basically the cycle upon which they 
witnessed and experienced over decades. But in that 
conversation, since we flew over much of Ethiopia in Russian 
helicopters--something that I do not recommend--
    [Laughter.]
    Mr. Gilchrest. --I probably will not ever do it again--I 
noticed how degraded the landscape was, denuded of forests, 
erosion, and that if a simple, basic plan was put into place 
that followed the hydrologic cycle and there were buffers in 
place, much of which we do here in the United States as a 
matter of course, to protect their watersheds, life would come 
back and the health of the region, I think, would have 
dramatically improved.
    So when we had a somewhat brief but interesting discussion 
on the conservation corridor, on following the hydrologic 
cycle, and an understanding of what Ethiopia might have looked 
like thousands of years ago, with lush forests and pure water, 
how much better the country would be. There was stunning 
interest in that conversation, which was thrown into the 
conversation about children with AIDS and a number of other 
things.
    So I think some interesting steps can be taken in that 
arena as sometimes seemingly side conversations that can get at 
the heart of the problem.
    I will yield again to the gentleman from California.
    Mr. Pombo. Thank you, Mr. Chairman.
    I just had a couple more questions that I wanted to ask, 
and then I have a series of questions that I would like to 
submit in writing and have those answered. Some of them are 
somewhat technical in nature and I think it would just be 
easier if I submitted those and gave you the opportunity to 
answer them in writing for the Committee hearing.
    One issue that has come up repeatedly, and Secretary 
Manson, I have talked to you about this in the past, was the 
whole issue of the passport issue on traveling exhibits. There 
are a number of different proposals that are coming up. The 
U.S. is developing one. Russia is developing one. I understand 
that the Secretariat is also developing one. Do you believe 
that this will all be put together for one international 
passport on traveling exhibits, or are we going to have three 
separate systems that are being developed? Do you at this point 
have an idea where we are headed with that, and is there a 
possibility that this issue could be resolved at the upcoming 
COP12?
    Mr. Manson. Well, we have always supported the passport 
system. It makes sense to alleviate the burden on individuals 
and governments, as well, quite frankly. There are several 
proposals, as you point out. The Russian proposal, we do not 
support. I think that it is possible that we can reach some 
sort of consensus at COP12 on a single system. We certainly 
would work toward that end.
    Mr. Pombo. I think with some of the problems we have had 
recently, it would be to everybody's benefit if we resolved 
that issue. I think it would be, for the sake of the animals 
involved, I think it would be a lot better if we got that 
resolved and we had a system that we could depend on. I think 
it would make it a lot easier.
    The final question I would ask, Mr. Manson, and you 
discussed this briefly earlier, we list under the domestic ESA 
many species that are listed under CITES. What is the purpose 
of doing that, and do you believe that it offers a different 
level of protection for the species that are listed under both? 
I believe that the domestic Endangered Species Act has a 
different purpose than CITES.
    Mr. Manson. Well, I agree with that. I think that there are 
different considerations when we talk about species under our 
domestic Endangered Species Act. There is a different scheme of 
regulation. There are different mechanisms to give relief to 
individuals who may be affected by the regulatory scheme under 
the domestic Endangered Species Act.
    I think CITES, as I said earlier, has a different focus. It 
is not designed as an international endangered species act on 
the model that we have in the United States. So the dual 
listing of species under the domestic Endangered Species Act, 
as well as under CITES, does serve to offer different types of 
benefits to the species that are involved.
    Mr. Pombo. I look forward to discussing that issue further 
with you, because in many ways, I think it complicates the 
issue. It is at cross purposes many times, and I feel that 
under the domestic Endangered Species Act, that we would be 
better served spending the time and energy and resources, the 
very limited resources that we have, protecting domestic 
species instead of listing international species under that Act 
unless there is a specific reason to list that species, which 
may be the case in certain migratory issues. But I look forward 
to talking to you further about that in the future.
    I want to thank the Chairman for agreeing to hold this 
hearing. As I said at the opening, this is an very important 
issue for the United States. Many times, I think that in the 
past, Congress did not give it the attention that it deserves. 
But over the past several years, we have had a number of 
hearings on CITES. I have had the opportunity to attend the 
last two. It is my intention to attend the upcoming conference 
and I look forward to working with you gentlemen in the future. 
Thank you.
    Mr. Gilchrest. I thank the gentleman from California. I 
guess he has to fill out an absentee ballot to attend this next 
hearing.
    I know Dr. Hogarth has to leave here shortly, but I just 
had a question, Dr. Hogarth. I guess in the past, there have 
been a number of times when there has been a proposal to list 
certain species of sharks and they have always been rejected. 
Can you give us some idea of why that has happened, why listing 
especially whale shark and basking shark proposed to CITES has 
not been accepted and what the status of those listings are 
now?
    Mr. Hogarth. I think this brings to a head the whole 
discussion about the role of CITES in marine species, marine 
fish species, particularly the fish species, and the 
conservation of the marine fish species here versus the 
regional management through the other mechanisms. I think that 
has been one of the things that for years has been discussed 
and has not been resolved. I think the Australian proposal on 
toothfish is probably trying to bring that to a head, as to 
really what the role of CITES is in the conservation of a 
marine fish species.
    I think the two sharks, I mean, whales that are listed, you 
know, I think, the reasons there. The sharks, it is sort of 
hard to say why they have not been. We have not really had, I 
think, our position fully established on what we think marine 
fish species belong. We are trying to work with FAO through 
their program and CITES and trying to coordinate the two 
programs.
    That is not a real good answer to your question because I 
just do not think we have gotten all the information and 
decided what is the best way. Do we need another process for 
sustainability of marine fish species where we have some of the 
other schemes in place to manage this?
    Mr. Gilchrest. When these proposals were made to CITES 
about certain species of sharks to be listed, who made those 
proposals?
    Mr. Hogarth. I think--
    Mr. Gilchrest. Was it the U.S.? Was it some other country? 
Was it an NGO?
    Mr. Hogarth. The one we will be finding this year will be 
one that is coming from the European Union to list basking 
sharks as Appendix 2. Both the whale and basking sharks are 
already prohibited in U.S. waters. India is proposing, and the 
Philippines, that the whale sharks be listed in Appendix 2, and 
they are extremely rare and are facing increased international 
trade in the Indopacific. We will probably support those two 
proposals because of the conditions of those stocks and what is 
around them.
    There will be a conservation management proposal that is 
being offered by Australia, suggests that the CITES animal 
committee regularly review the conservation of the various 
shark populations and recommend listing priorities. So there is 
another mechanism that Australia is recommending.
    Mr. Gilchrest. I see.
    Mr. Hogarth. Ecuador is also going to come forward with a 
conservation and trade of sharks being offered. And then these 
will be talked about, closer coordination between CITES and 
FAO. They are being reviewed right now and are going to come up 
at COP12. Whether a decision will be made at that point, it is 
somewhat difficult to say. But I think the whale and basking 
shark proposals, we will support those, and I think the long-
term sharks will be a discussion of how is the best way to do 
it.
    Mr. Gilchrest. Does CITES deal with white marlin?
    Mr. Hogarth. Not yet.
    [Laughter.]
    Mr. Gilchrest. OK.
    Mr. Hogarth. That is next week, is it not? That is the 
topic of next week's discussion.
    Mr. Gilchrest. Is that next week?
    [Laughter.]
    Mr. Gilchrest. Where is that going to be held, in Ocean 
City? ICCAT is not meeting in Ocean City?
    Mr. Hogarth. No, Spain.
    Mr. Gilchrest. Dr. Hogarth, Judge Manson, gentlemen, thank 
you very much for your testimony. We look forward to working 
with you in the months ahead.
    The hearing is adjourned.
    [Whereupon, at 3:21 p.m., the Subcommittee was adjourned.]


</pre></body></html>
